                                AUDIT OF SBA’S
                                EMAIL SYSTEM
                           AUDIT REPORT NUMBER 4-42

                                 SEPTEMBER 10, 2004




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                         U.S. SMALL BUSINESS ADMINISTRATION
                             OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, D.C. 20416

                                                               AUDIT REPORT
                                                       Issue Date: September 10, 2004
                                                       Number: 4-42



To:             Stephen D. Galvan
                Chief Information Officer



From:           Robert G. Seabrooks,
                Assistant Inspector General for Auditing

Subject:        Audit of SBA’s Email System

       Attached is the public version of the audit report on SBA’s Exchange Email system
issued by Cotton & Company LLP. The report was issued as LIMITED-OFFICIAL-USE.
Distribution of the full report requires specific authorization by the SBA Office of Chief
Information Officer (OCIO) or SBA Office of the Inspector General (OIG).

        The auditors reviewed the SBA’s Exchange Email System settings and configurations
against standards issued by the National Security Administration (NSA) specifically for
Microsoft Exchange email systems.

          The auditors concluded that SBA’s Exchange Email system server was vulnerable [FOIA
Ex. 2].

       SBA was in general agreement with the findings and recommendations, but did not
provide a written response to the draft audit report. Actions to address the finding and
recommendations will be evaluated during the audit resolution process.

      The findings in this report are based on the auditors’ conclusions and the report
recommendations are subject to review, management decision and action by your office in
accordance with existing Agency procedures for follow-up and resolution.

       Please provide us your proposed management decisions by October 31, 2004 on the
attached SBA Forms 1824, Recommendation Action Sheet. If you disagree with the
recommendations, please provide your reasons in writing.
       Should you or your staff have any questions, please contact Jeffrey R. Brindle, Director,
Information Technology and Financial Management Group at (202) 205-[FOIA Ex. 2].


Attachments
                                      September 9, 2004


Subject: Audit of SBA’s E-Mail System at the U.S. Small Business Administration



We were engaged to conduct a performance audit of the Exchange E-Mail System at the U.S.
Small Business Administration (SBA). We utilized the NSA Guide to the Secure Configuration
and Administration of Microsoft Exchange 5.x as criteria for this project. The objective of our
work was not to provide assurance on overall internal control. Consequently, we do not provide
an opinion on internal control.

This report is intended solely for the information and use of SBA management. We would like
to express our appreciation to the SBA representatives who assisted us in completing our work.
They were always courteous, helpful, and professional.

If you have any questions or comments about this report, please contact me at your convenience.
Thank you.

Very truly yours,

COTTON & COMPANY LLP

       /S/
Loren Schwartz, CPA, CISA
          PERFORMANCE AUDIT OF THE EXCHANGE E-MAIL SYSTEM AT
            U.S. SMALL BUSINESS ADMINISTRATION HEADQUARTERS

                               EXECUTIVE SUMMARY

BACKGROUND

Cotton & Company LLP was engaged by the Office of the Inspector General, U.S. Small
Business Administration (SBA), to conduct an audit of certain components of SBA’s
general support system. This report specifically covers our review of the SBA
Exchange E-Mail System at SBA headquarters. The Exchange E-Mail System is
deemed critical to the SBA’s operations.

OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective of our audit was to review existing information security controls
and identify weaknesses impacting certain components of the Exchange E-Mail System.
Our review was not intended to result in the issuance of an opinion, and we do not issue
an opinion as defined by the American Institute of Certified Public Accountants. We
reviewed the configurable settings, management controls, and policies and procedures
surrounding the email exchange server at SBA headquarters. We used the following
criteria for our review:

NSA Guide to the Secure Configuration and Administration of Microsoft Exchange 5.x.

We conducted this review in accordance with Generally Accepted Government Auditing
Standards for Performance Audits and accordingly, we performed such tests and other
auditing procedures as necessary to meet the review objective. A review of the entire
internal control structure was not required for the scope of this audit.

We performed fieldwork from March through June 2004 at SBA headquarters located in
Washington, D.C., and at Cotton & Company’s Alexandria, Virginia, office.

SUMMARY OF FINDINGS AND RECOMMENDATIONS

      [FOIA Ex. 2].

We recommend that SBA take actions to minimize the risk of security deficiencies by
correcting the deficiencies disclosed in this report. Specific recommendations are
detailed in the results section of this report.
                                                      ATTACHMENT A



                         PUBLIC REPORT DISTRIBUTION

Recipient                                               Copies


Associate Deputy Administrator for
  Management & Administration                              1

General Counsel                                            3

Government Accountability Office                           1

Office of the Chief Financial Officer
  Attention: Jeff Brown                                    1
